No.
IN THE SUPREME COURT OF THE UNITED STATES
STEVEN T. MNUCHIN, SECRETARY OF THE
TREASURY, PETITIONER
v.
CONFEDERATED TRIBES OF THE CHEHALIS
RESERVATION, ET AL.
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the PETITION FOR A WRIT OF CERTIORARI, via e-mail and first-class mail, postage
prepaid, this 23rd day of October 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 8950,
words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d). I declare under penalty of perjury that the foregoing is true and correct. Executed
on October 23, 2020.

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
October 23, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

Service List: Mnuchin v. Confederated Tribes of the Chehalis Reservation, et al.

Riyaz A. Kanji
Email: rkanji@kanjikatzen.com
Kanji & Katzen, PLLC
Firm: 734-769-5400
303 Detroit Street
Suite 400
Ann Arbor, MI 48104
Eric Dahlstrom
Email: edahlstrom@rothsteinlaw.com
Rothstein Donatelli LLP
1501 W. Fountainhead Parkway
Suite 360
Tempe, AZ 85282
Bradley G. Bledsoe Downes
Direct: 949-500-4092
Email: bdownes@elk-valley.com
Elk Valley Rancheria, California
2332 Howland Hill Road
Crescent City, CA 95531
Alexander B. Ritchie
Direct: 928-475-3344
Email: alex.ritchie@scat-nsn.gov
Fax: 928-475-3348
San Carlos Apache Tribe
PO Box 40
16 San Carlos Avenue
San Carlos, AZ 85550
Lori Brunner
Direct: 360-276-8215
Email: LBruner@quinault.org
Quinault Office of the Attorney General
136 Cuitan Street
Taholah, WA 98587
Nicole E. Ducheneaux
Direct: 531-466-8725
Email: nducheneaux@bigfirelaw.com
Fax: 531-466-8792
Big Fire Law & Policy Group
1404 Fort Crook Road South
Bellevue, NE 68005
Jennifer Bear Eagle
Direct: 402-617-3553
Email: JenniferBE@ostlegal.org
Fax: 605-867-2140
Oglala Sioux Tribe
PO Box 1204
Pine Ridge, SD 57770

Natalie A. Landreth
Direct: 907-276-0680
Email: landreth@narf.org
Fax: 907-276-2466
Native American Rights Fund
Firm: 907-276-0680
745 West 4th Avenue
Suite 502
Anchorage, AK 99501
Jeffrey Rasmussen
Direct: 303-926-5292
Email: jrasmussen@nativelawgroup.com
Fax: 303-926-5293
Patterson Earnhart Real Bird & Wilson LLP
357 S. McCaslin Boulevard
Suite 200
Louisville, CO 80027
Paul D. Clement
Email: paul.clement@kirkland.com
Kirkland & Ellis LLP
Firm: 202-879-5000
1301 Pennsylvania Avenue, NW
Washington, DC 20004
Jonathan W. Katchen
Direct: 907-865-2600
Email: jwkatchen@hollandhart.com
Holland & Hart LLP
1029 W. Third Avenue
Suite 550
Anchorage, AK 99501

